           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         FOLLOW-UP AUDIT:
  INFORMATION SYSTEM CONTROLS
      OF THE SOCIAL SECURITY
 ADMINISTRATION'S REPRESENTATIVE
           PAYEE SYSTEM

  June 2006         A-14-06-16114




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   June 26, 2006                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up Audit: Information System Controls of the Social Security Administration’s
        Representative Payee System (A-14-06-16114)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA)
        implemented recommendations made in our September 30, 2002 report, Information
        System Controls of the Social Security Administration's Representative Payee System
        (A-44-01-31051).

        BACKGROUND
        Over 7.5 million people who receive Old-Age, Survivors and Disability Insurance
        (OASDI) benefit payments or Supplemental Security Income (SSI) payments, or both,
        are unable to manage their own finances because of their age or mental and/or physical
        impairments. For such people, SSA appoints a representative payee to receive and
        manage the benefit payments on the recipient’s behalf. Most recipients under
        age 18 have representative payees—usually a parent. Adults who cannot manage their
        finances because of severe physical or mental limitations also need representative
        payees. Of those receiving SSI payments, 36 percent have representative payees, and
        11 percent of those receiving OASDI benefits have representative payees.

        The Representative Payee System (RPS) was created in 1992 to provide an on-line
        database of representative payee activity nationwide. RPS was intended to provide
        field office (FO) employees with immediate access to vital information about
        representative payees to assist field employees in making good representative payee
        decisions and to prevent fraud. RPS was developed after Congress mandated in 1990 1
        that SSA perform a more thorough investigation of representative payee applicants and
        establish a centralized file for storing and retrieving representative payee data
        nationwide. RPS contains data about representative payee applicants, beneficiaries in

        1
          Omnibus Budget Reconciliation Act of 1990, Public Law 101-508 § 5105; see also Section 205(j)(2) of
        the Social Security Act, 42 U.S.C. § 405(j)(2).
Page 2 - The Commissioner

the representative payee’s care, and the relationship between the representative
payees and the beneficiaries they represent.

Our September 2002 report found that while many controls were strong and operating
effectively, the input, processing, and output controls for RPS needed to be
strengthened and/or improved. We recommended that SSA revise the RPS software to
improve its input and processing controls and modify the Master Representative Payee
File (MRPF) alert process. SSA agreed with our recommendations. See Appendix C
for a full list of the 13 recommendations included in our prior report.

We performed our field work in SSA Headquarters between January and March 2006.
We conducted our review in accordance with generally accepted government auditing
standards.

RESULTS OF REVIEW
SSA has made significant efforts to address our recommendations and has fully
implemented recommendations 1, 2, 4, 6, 8, 11 and 13 from our prior audit report. Our
review found that SSA has taken the following corrective actions to address these
seven recommendations:
   •   Modified RPS to generate appropriate alert messages and prevent incorrect or
       invalid information from being entered.
   •   Implemented a daily match between the Prisoner Update Processing System
       database and RPS to identify incarcerated representative payees. If a
       representative payee identified by this matching process is not replaced, the user
       must document the reason for this within RPS via a special text screen.
   •   Performed a manual review and clean-up of duplicate organizational
       representative payees within RPS by the FOs.
   •   Analyzed the MRPF process and decided to suppress two alerts that were
       deemed unproductive or repetitive, thereby significantly reducing the amount of
       alerts that FO users have to investigate and clear.
   •   Stopped suppressing MRPF alerts that are the result of missing Beneficiary’s
       Own Account Numbers.
   •   Implemented a national tracking system for Beneficiary’s Own Social Security
       Number alerts.

We reviewed the RPS modifications in a validation environment and determined that
they, in addition to the other efforts noted previously, effectively addressed these
recommendations.

SSA considered, but did not implement, recommendations 10 and 12 from our initial
report. While SSA did not perform a risk assessment to determine which MRPF alerts
should be worked or suppressed, the Agency did analyze the MRPF process and
Page 3 - The Commissioner

decided to suppress two alerts that were deemed unproductive or repetitive. Also, due
to limited systems resources and higher Agency priorities related to RPS, SSA decided
not to develop a process to monitor and track MRPF alerts to ensure that they were
being worked. While we believe that the original recommendations still have merit, in
this instance we accept SSA’s judgment on where to allocate the Agency’s resources
after it has considered the costs of implementation. Therefore, we consider
recommendations 10 and 12 closed.

Open Recommendations with Corrective Action Initiated

SSA has begun corrective action on recommendations 3, 5, and 7. For
recommendations 3 and 7, RPS is being modified to:
      •   Require the system user to document the rationale when an Employer
          Identification Number (EIN) is overridden.
      •   Ensure that only one representative payee is appointed for a beneficiary
          receiving two or more benefits.

RPS users will now be required to document the rationale for overriding an EIN. This
will ensure that organizations whose EINs do not appear in the Employer Identification
File cannot be appointed without justification. Also, the modification of RPS to ensure
that only one representative payee is appointed for a beneficiary receiving two or more
benefits will mirror SSA policy. 2 The Agency has stated that these modifications will
occur in the next release of the Representative Payee Accountability Project in
Fiscal Year 2006.

To initiate a suspension of benefit payments and development of a new representative
payee, the Death Alert, Control and Update System is being modified to send a file of
deceased representative payees to the Master Beneficiary Record and the
Supplemental Security Record. When implemented, this will help ensure that deceased
representative payees are identified, terminated, and replaced.

Open Recommendation That is Still Under Consideration

The Agency agreed with recommendation 9 and indicated that it would evaluate the
extent of systems changes required to implement the recommendation. SSA policy 3
prohibits custodial parents from having a collective savings account for their children
receiving benefits. To ensure that funds are properly accounted for and spent for each
child, we encourage SSA to pursue implementation of this recommendation. If a
decision is reached that implementation is not feasible, the Agency should formally
document this decision.


2
 Program Operations Manual System (POMS), Section GN 00502.183, Making a Payee Appointment
Determination.
3
    POMS, Section GN 00603.010, Conserving Benefits in a Savings or Checking Account.
Page 4 - The Commissioner

See Appendix C for specific details on each of our 13 recommendations made in the
prior report, including corrective actions taken and our assessment of the Agency’s
implementation of these recommendations.

CONCLUSION
SSA has made significant progress in addressing the 13 recommendations of our prior
audit. SSA has fully implemented seven of our recommendations and determined after
evaluating the cost effectiveness not to implement two recommendations. For the
remaining four recommendations, we encourage SSA to continue the corrective actions
initiated or under consideration to improve RPS.

AGENCY COMMENTS
SSA continues to work on the four remaining recommendations. For the full text of the
Agency’s comments see Appendix D.




                                           S
                                           Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Status of Recommendations from September 2002 Audit, Information
            System Controls of the Social Security Administration’s Representative
            Payee System (A-44-01-31051)

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
BOSSN    Beneficiary’s Own Social Security Number
DACUS    Death Alert, Control and Update System
EIN      Employer Identification Number
FO       Field Office
FY       Fiscal Year
MRPF     Master Representative Payee File
OASDI    Old-Age, Survivors and Disability Insurance
OS       Office of Systems
POMS     Program Operations Manual System
PUPS     Prisoner Update Processing System
RPS      Representative Payee System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                    Appendix B

Scope and Methodology
This is a follow-up review of our September 30, 2002 report, Information System
Controls of the Social Security Administration's Representative Payee System
(A-44-01-31051). Our scope is limited to a determination of whether the Social Security
Administration (SSA) has taken sufficient measures to implement the recommendations
in the 2002 report.

To accomplish our objective, we:
•   Interviewed officials from SSA’s Office of Systems to determine the status of
    corrective actions taken to address recommendations resulting from our September
    2002 report.
•   Reviewed applicable Federal laws and SSA policy relating to the Representative
    Payee System.

We performed our field work at SSA Headquarters between January and March 2006.
The entity audited was the Office of Systems. We conducted our review in accordance
with generally accepted government auditing standards.
                                                                     Appendix C
Status of Recommendations from September 2002 Audit,
Information System Controls of the Social Security
Administration’s Representative Payee System
(A-44-01-31051)

We recommended that the Social Security Administration (SSA):

Revise the Representative Payee System (RPS) to improve the effectiveness of the
input controls by:

Recommendation 1 - Prohibiting selection of an applicant when a question mark
(“?” character) is entered in the Type of Crime field.
Action Taken       SSA has modified RPS to prohibit selection of an applicant when a
                   question mark (“?” character) is entered in the Type of Crime field.
Recommendation     Yes.
Implemented?

Recommendation 2 - Prohibiting appointment of a representative payee between
ages 15 and 18 until proof of emancipation or capability is documented in RPS.
Action Taken       SSA has modified RPS to generate an alert message and requires
                   the use of a special text screen to document the rationale for
                   appointment of a representative payee under the age of 18.
Recommendation     Yes.
Implemented?




                                        C-1
Recommendation 3 - Requiring verification of an Employer Identification
Number (EIN) or documentation before allowing the EIN to be overridden.
Action Taken      SSA has expanded the Master Representative Payee File
                  (MRPF) to store the information entered into RPS relating to the
                  documentation reviewed to override an EIN.
Action Underway   The Agency has informed us that the appropriate RPS screen will
to Fully          be modified to include a field for the user to document the
Implement         rationale for overriding an EIN when a match against the
                  Employer Identification File is not found. This modification is
                  scheduled to occur in the next release of the Representative
                  Payee Accountability Project in Fiscal Year (FY) 2006. Once
                  completed, this additional control will ensure that RPS users
                  cannot override an EIN without justification when appointing an
                  organization as a representative payee.
Recommendation    No.
Implemented?

Recommendation 4 - Correcting the input edit that permits the entry of
improper zip codes.
Action Taken      SSA has modified RPS to prevent the entry of improper zip
                  codes.
Recommendation    Yes.
Implemented?




                                      C-2
Revise the RPS software to improve the effectiveness of the processing controls by:

Recommendation 5 - Automating the processes for:
   a. Identifying and terminating deceased representative payees, and
      ensuring deceased representative payees are replaced.
   b. Identifying incarcerated representative payees. Also, if an incarcerated
      representative payee is not replaced, RPS should require the justification
      to be documented.
Action Taken        For part a of this recommendation, SSA has created a utility
                    program to identify and build a file of deceased representative
                    payees.

                    For part b, SSA has implemented a daily match between its
                    Prisoner Update Processing System (PUPS) database and RPS
                    to identify incarcerated representative payees. If a representative
                    payee identified by this matching process is not replaced, the
                    user must document the reason for this within RPS via a special
                    text screen. We consider part b of this recommendation to be
                    fully implemented.
Action Underway     The Agency has informed us that it is modifying the Death Alert,
to Fully            Control and Update System (DACUS) to send the file of
Implement           deceased representative payees to the Master Beneficiary
                    Record and the Supplemental Security Record. This will initiate a
                    suspension of benefit payments and development of a new
                    representative payee. Due to funding issues, this project is on
                    hold. We encourage the Agency to pursue the implementation of
                    the DACUS modification to ensure that deceased representative
                    payees are identified, terminated, and replaced.
Recommendation      No.
Implemented?




                                         C-3
Recommendation 6 - Displaying an on-screen message or generating an alert to
remind Field Office (FO) employees:
   a. To re-evaluate an existing representative payee relationship when the
      representative payee is convicted of a felony. Also, if there is a reason
      why the felonious representative payee is not replaced, or if the felonious
      representative payee is appointed to serve other beneficiaries in the
      future, RPS should require the justification for continued use of that
      representative payee to be documented.
   b. To re-evaluate an existing representative payee relationship when the
      representative payee has been found to have misused funds. Also, if a
      more suitable representative payee cannot be identified and the existing
      representative payee continues to serve, or if this representative payee is
      appointed to serve for other beneficiaries in the future, RPS should
      require the justification for continued use to be documented.
   c. To develop new representative payees when an organizational
      representative payee is no longer in business. Also, RPS should
      terminate or prevent the appointment of representative payees that are
      no longer in business to ensure that they do not receive current or future
      benefit payments.
Action Taken      For part a of this recommendation, SSA has implemented a daily
                  match between its PUPS database and RPS to identify
                  incarcerated representative payees. If a representative payee
                  identified by this matching process is not replaced, the user must
                  document the reason for this within RPS via a special text screen.
                  RPS also alerts users if a felon applicant is serving other
                  beneficiaries as representative payee and instructs the user to
                  investigate suitability.

                  For part b, RPS generates an alert message to re-evaluate an
                  existing representative payee relationship when a representative
                  payee is found to have misused funds for other beneficiaries.
                  Also, the user is required to document this re-evaluation within
                  RPS.

                  For part c, RPS generates an alert message to prevent the
                  selection of an out of business organizational representative
                  payee.
Recommendation    Yes.
Implemented?




                                      C-4
Recommendation 7 - Displaying an on-screen message that asks for a
confirmation response before proceeding when an attempt is made to appoint
different representative payees for a beneficiary receiving concurrent benefits.
RPS should require the justification for appointing different representative
payees to be documented.
Action Taken         SSA has decided to modify RPS to require the same
                     representative payee for all entitlements.
Action Underway      According to an Office of Systems (OS) staff member, this
to Fully             modification is scheduled to occur in the next release of the
Implement            Representative Payee Accountability Project in FY 2006. This
                     will enable RPS to agree with Agency policy 1 that one
                     representative payee shall be appointed for all benefits to which a
                     beneficiary is entitled.
Recommendation       No.
Implemented?

Recommendation 8 - Improving controls over the addition of new organizational
representative payees to the database. Also, SSA should consolidate multiple
entries that currently exist in the database.
Action Taken         SSA has modified RPS to generate an alert message when
                     adding an organizational representative payee that has a similar
                     name or address to an existing organizational representative
                     payee in the database. The Agency also performed a manual
                     review and clean-up of duplicate organizational representative
                     payees within RPS.
Recommendation       Yes.
Implemented?




1
 Program Operations Manual System (POMS), Section GN 00502.183, Making a Payee Appointment
Determination.



                                           C-5
Recommendation 9 - Prohibiting the establishment of collective (identical)
savings accounts in RPS for child beneficiaries when the parent is a
representative payee.
Action Taken             SSA agreed with the original recommendation and indicated that
                         it would evaluate the extent of systems changes required to
                         implement the recommendation.
Action Underway          SSA policy 2 prohibits custodial parents from having a collective
to Fully                 savings account for their children receiving benefits. To ensure
Implement                that funds are properly accounted for and spent for each child, we
                         encourage SSA to pursue implementation of this
                         recommendation. If a decision is reached that implementation is
                         not feasible, the Agency should formally document this decision.
Recommendation           No.
Implemented?

Modify the MRPF alert process by:

Recommendation 10 - Conducting a risk assessment to determine which MRPF
alerts should be worked and which should be suppressed.
Action Taken             Although SSA did not perform a risk assessment to determine
                         which MRPF alerts should be worked or suppressed, the Agency
                         did analyze the MRPF process and decided to suppress two
                         alerts that were deemed unproductive or repetitive.

                         While we believe that the original recommendation still has merit,
                         the intent of the recommendation was addressed. Therefore, we
                         consider this recommendation closed.
Recommendation           Yes.
Implemented?




2
    POMS, Section GN 00603.010, Conserving Benefits in a Savings or Checking Account.


                                                C-6
Recommendation 11 - Improving the MRPF alerts by categorizing and
prioritizing them, as well as improving the descriptive legends.
Action Taken     An OS staff member stated that categorizing or prioritizing alerts
                 would give the impression to users that a "lower" priority alert
                 should not be immediately resolved, therefore the focus of
                 addressing this recommendation was to improve the guidance
                 for clearing alerts.

                 The SSA policy that FO users should follow to resolve alerts
                 was rewritten to provide explicit instructions on how to resolve
                 MRPF alerts. As noted previously, SSA also has begun
                 suppressing two alerts that have been deemed unproductive or
                 repetitive. According to the Agency, this will significantly reduce
                 the number of alerts generated to the FOs.

                 While we believe that the original recommendation still has
                 merit, the intent of the recommendation was addressed.
                 Therefore, we consider this recommendation implemented.
Recommendation   Yes.
Implemented?

Recommendation 12 - Developing a process for tracking and monitoring MRPF
alerts to ensure they are being worked.
Action Taken     Due to limited systems resources and higher Agency priorities
                 related to RPS, SSA decided against developing a process for
                 monitoring and tracking MRPF alerts to ensure that they were
                 being worked.

                 While we believe that the original recommendation still has
                 merit, we defer to the Agency’s judgment on where to allocate
                 its resources after considering the costs of implementation.
                 Therefore, we consider this recommendation closed.
Recommendation   Yes.
Implemented?




                                      C-7
Recommendation 13 - Re-evaluating whether the practice of suppressing MRPF
alerts should be discontinued in light of evidence that the Beneficiary’s Own
Social Security Number (BOSSN) alerts are not being worked, tracked or
monitored.
Action Taken      The Agency no longer suppresses MRPF alerts that are the result
                  of missing Beneficiary’s Own Account Numbers.

                  SSA has also implemented a tracking system for BOSSN alerts
                  that provides FO managers with the capability to update field
                  actions online. This system will also provide counts of BOSSN
                  alerts that are pending (by age, FO, District, Area, Regional Office,
                  or on a National level) or have been cleared since the prior
                  month’s report.
Recommendation    Yes.
Implemented?




                                       C-8
                  Appendix D

Agency Comments
                                     SOCIAL SECURITY
MEMORANDUM


Date:    June 12, 2006                                                     Refer To: S1J-3

To:      Patrick P. O'Carroll, Jr.
         Inspector General

From:    Larry W. Dye /s/
         Chief of Staff

Subjec   Office of the Inspector General (OIG) Draft Report, "Follow-up Audit: Information
         System Controls of the Social Security Administration’s Representative Payee System”
         (A-14-06-16114)--INFORMATION


         Thank you for the opportunity to review and provide comments on the subject draft
         follow-up audit report. We appreciate OIG’s efforts in conducting this follow-up audit.
         Our comments are attached.

         Please let me know if you have any questions. Staff inquiries may be directed to
         Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
         54636.

         Attachment:
         SSA Comment




                                                    D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP AUDIT: INFORMATION SYSTEM CONTROLS OF THE
SOCIAL SECURITY ADMINISTRATION’S REPRESENTATIVE PAYEE SYSTEM”
(A-14-06-16114)

Thank you for the opportunity to review and provide comments on the subject draft
follow-up audit report. We appreciate OIG’s efforts in conducting this follow-up audit.

The draft report concludes the Social Security Administration (SSA) has made significant
progress in addressing OIG's prior recommendations. OIG notes that SSA has fully
implemented seven of the thirteen recommendations and decided not to implement two
recommendations after determining it would not be cost-effective to implement them.
Regarding the remaining four recommendations, the draft report encourages SSA to
continue the corrective actions initiated or under consideration to improve the
Representative Payee System (RPS). The draft report does not include any new
recommendations to SSA.

We would like to provide the following updates regarding our implementation of the
remaining four recommendations from the prior OIG report (September 30, 2002).

Recommendation 3

Require verification of an Employer Identification Number (EIN) or documentation
before allowing the EIN to be overridden.

Status Update

We are modifying the appropriate RPS screen to include a field for the user to
document the rationale for overriding an EIN when a match against the Employer
Identification File is not found. This change is currently scheduled to be implemented in
October 2006.

Recommendation 5

Revise the RPS software to improve the effectiveness of the processing controls by
automating the processes for:

a. Identifying and terminating deceased representative payees, and ensuring deceased
representative payees are replaced.

b. Identifying incarcerated representative payees. Also, if an incarcerated
representative payee is not replaced, RPS should require the justification to be
documented. (Fully Implemented)




                                           D-2
Status Update

We have completed the following actions to implement this recommendation:

1) RPS software released in August 2003 is capable of receiving from the Death Alert,
Control and Update System (DACUS) a file of deceased persons and replying to
DACUS with a file of representative payees identified as deceased. The planned
programming of DACUS to subsequently send a notice of death to the Master
Beneficiary Record and/or Supplemental Security Record was implemented in March
2004. Work is underway to make modifications to allow DACUS to interface with RPS.

2) The Representative Payee Master File has been modified to house a death indicator
and the date the RPS was notified of the death. The actual date of death resides on the
NUMIDENT.

Recommendation 7

Display an on-screen message that asks for a confirmation response before proceeding
when an attempt is made to appoint different representative payees for a beneficiary
receiving concurrent benefits. RPS should require the justification for appointing
different representative payees to be documented.

Status Update

This item is currently in the developmental stage for changes to RPS that will prevent
the field office from selecting different payees for an individual receiving concurrent
benefits. This is scheduled to be implemented in October 2006.

Recommendation 9

Prohibit the establishment of collective (identical) savings accounts in RPS for child
beneficiaries when the parent is a representative payee.

Status Update

We are evaluating the systems changes required to implement this recommendation. If
we decide implementation of the recommendation is not feasible or cost-effective, we
will document any such decision.




                                           D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kitt Winter, Director, Data Analysis and Technical Audits Division, (410) 965-9702

   Albert Darago, Audit Manager, Application Controls Branch (410) 965-9710

Acknowledgments

In addition to those named above:

   Greg Thompson, Auditor-in-Charge

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-1375. Refer to Common Identification Number
A-14-06-16114.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
